V tj

V;_v.

O.

FILED
JAN 0 8 2021
IN THE
SUPREME COURT OF THE UNITED STATES

—JpkKS C>H

— PETITIONER

(Your Name)
vs.
i-hcj S-}g4 t^ o-T Afv\e,ricc<-^ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

U-S. Cj>^\oT ^ppe^/s*. "ft> ^ ‘T Kd-

(Zi rCAJi Y'

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
P 0 -

p~-£. d -c-met-] Co v^r-e- ef~i t>
Tni-J 'To-f / o (a. /W-c-kts iou^

3 0Y

IOOO

(Address)

pg-f€^

/ 1/1

(City, State, Zip Code)

(Phone Number)

i <n

c

TABLE OF CONTENTS

TABLE OF AUTHORITIES

1

OPINIONS BELOW

11

JURISDICTION

in

RELEVANT PROVISIONS INVOLVED

1

QUESTIONS PRESENTED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE PETITION

3

CONCLUSION

9

APPENDIX
Opinion of the U.S. Court of Appeals
Order Denying Rehearing
Petition for Rehearing

TABLE OF AUTHORITIES

21 U.S.C. § 841(a)(1)
18 U.S.C. § 1951
18 U.S.C. § 924(c)(l)(A)(o)
18 U.S.C. § 1512(b)(1)
U.S.S.G. §2B3.1(b)(2)(A)

Nichols v. United States, 511 U.S. 738 (1994)
Pinkerton v. United States, 328 U.S. 640 (1946)
United States v. Booker, 220, 264, 125 S. Ct. 738 160 L. Ed. 2d 621 92005)
United States v. Brady, 928 F. 2d 844, 851
United States v. Chittenden, 848 F. 3d 188 (4th Cir. 2017)
United States v. Pimental, 107 F. 3d 1339United States v. Watts, 519 U.S. 148 (1997)

RELEVANT PROVISIONS INVOLVED
Hobbs Act
Sixth Amendment

l

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

Ij/f^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
jPpis unpublished.

to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
^

If

JURISDICTION

[l^For cases from federal courts:
The date on which the United States Court of Appeals decided my case
USi' /I,/ 3ozo
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
CLt\ r?
1^4 5
o4 i
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

I ( i

I. Questions Presented
1, Does an acquittal under a Pinkerton liability question safeguard against the acquitted conduct
from being calculated into the sentencing guidelines as in Watts?
2. Is there a difference in the courts use of discretion at sentencing with regard to whether the
Pinkerton Question is one of “amount attributed” as opposed to guilt or innocence?
3. Did the court violate the petitioner’s Sixth amendment right to jury trial when it allowed the
probation office to use discretion in calculating acquitted conduct into Advisory Sentencing Guidelines?
The Petitioner, Jamaa Johnson, requests that the Court issue its writ of certiorari to review the
judgment of the United States Court of Appeals for the Fourth Circuit entered in this case on August 11,
2020. Note: Due to public health concerns relating to Covid-19, the deadline for filing this Petition was
extended 150 days, or January 8,2021.
n. Statement of the case
This case arises from a conspiracy to commit a series of robberies in Virginia and West Virginia.
The Government alleged that Johnson was a member of this conspiracy and that he participated in the
robberies of Leair Lipscomb and Cabell Franklin. In its Fifth Superseding Indictment, the Government
charged Johnson with two counts of Hobbs Act robbery and one count of conspiracy to commit Hobbs
Act robbery, in violation of 18 U.S.C. § 1951, two counts of use of firearms in a crime of violence and
one count of conspiracy to use firearm in a crime of violence, in violation of 18 U.S.C.§924(c)(l)(A),(o),
one count of being a felon in possession of a firearm in violation of 922(g)(1), and one count of witness
tampering, in violation of 18 U.S.C. §1512(b)(1).
At trial, three of Johnson’s alleged co-conspirators - Robert Barcliff, Keith Glenn, and Brandon
Davis - testified against Johnson as did victim Cabell Franklin and Johnson’s former girlfriend, Megan
Smith. Barcliff testified that he and a group of friends from Wytheville, Virginia, including Johnson,

1

devised a plan to rob drug dealers. Johnson suggested robbing Lipscomb, a drug dealer who was known
to possess pills, cocaine and marijuana. Barcliff testified that he, Johnson, and Glenn drove to Lipscomb’s
home to commit the robbery. Barcliff and Glen entered the home, restrained Lipscomb at gunpoint, and
took marijuana, cash, and apparel. According to Barcliff, Johnson “drove the car and. ..helped load the
items.” Both Barcliff and Glenn testified that Barcliff carried a firearm and showed it to Johnson in the
car.
Barcliff and Davis also implicated Johnson in the Franklin robbery. Barcliff testified that
Johnson agreed to drive the group to Franklin’s home; once there, Johnson was to help secure Franklin by
holding him at gunpoint. But the robbery did not go according to plan. When Franklin answered the
door, Davis began to wrestle him and struck him in the head with a firearm; Barcliff also stabbed him
with a knife. Johnson held Franklin’s father at gunpoint and ordered him not to move. Barcliff then
rejoined Davis upstairs and the two decided to leave the home. Shortly thereafter, according to Barcliff
and Davis, Johnson ran out of the house saying, “I shot him”. Franklin had been shot in the left leg,
although he testified that he could not identify his assailant who was wearing a bandana. Smith,
Johnson’s girlfriend at the time of the robbery, testified that Johnson admitted to shooting Franklin so that
he could escape from the home.
At the conclusion of the evidence, the district court explained to the jury that a “crime of
violence,” for purposes of § 924(c), is a felony that “(a) has an element of use, attempted use, or
threatened use of physical force against the person or property of another, or (b) that by its nature,
involves a substantial risk that physical force against the person or property of another may be used in the
course of committing the offense.” The district court also instructed the jury that Hobbs Act conspiracy
constitutes a crime of violence.
After two days of deliberations, the jury told the court that it had reached a unanimous verdict.
The jury found Johnson guilty of Hobbs Act conspiracy, firearms conspiracy, and witness tampering.
The jury acquitted Johnson of being a felon in possession of a firearm and two counts of Hobbs Act
2

robbery. But with respect to the two counts of use of a firearm in a crime of violence (in connection with
the Lipscomb and Franklin robberies), the district court determined that the jury’s verdict form was
incomplete. The Government had alleged that Johnson violated § 924(c) on two theories - first, that
Johnson was liable for his co-conspirators’ use of firearms under Pinkerton v. United States, 328 U.S. 640
(1946); second, that Johnson had himself used a firearm. The jury found Johnson guilty on the first
theory but failed to answer whether Johnson was guilty on the second.
Johnson moved for a mistrial. The district court denied the motion and directed the jury to
continue deliberating with respect to the unanswered questions. Later that day, the jury submitted a note
to the court asking whether it could change its verdict as to the §924(c) counts. The district court
responded that the jury could do so. Johnson again moved for a mistrial, which the district court denied.
Shortly thereafter, the jury submitted its final verdict, this time acquitting Johnson of the § 924(c) counts
on both of the Government’s theories.
Although the jury convicted Johnson of Hobbs Act conspiracy and firearms conspiracy, the
verdict form did not specify which offenses Johnson had conspired to commit (the object offenses”). For
purposes of sentencing, the district court found that Johnson had conspired to commit the Lipscomb and
Franklin robberies. The court calculated an offense level of 35 and a criminal history category of IV and
imposed, among other adjustments, a seven-level enhancement for discharge of a firearm during the
Franklin robbeiy, U.S.S.G.§2B3.1(b)(2)(A), and a four-level enhancement for serious bodily injury to
Franklin, § 2B3.1(b)(3)(B). The court sentenced Johnson to 235 months’ imprisonment - the bottom of
the Guidelines range. The court also sentenced Johnson to three years of supervised release and imposed
a $300 special assessment. Johnson appealed.

3

III. Reasons for Granting the Petition
1. Does an acquittal under a Pinkerton liability question safeguard against the acquitted conduct
from being calculated into the sentencing guidelines as in Walls'?
Johnson’s acquitted conduct should not be used in calculating his sentence because it undermines
the jury’s verdict.
In United States v. Watts, police discovered cocaine base in a kitchen cabinet and two loaded
guns and ammunition hidden in a bedroom closet of Watts’ house. A jury convicted Watts of possessing
cocaine base with intent to distribute, in violation of 21 U.S.C. § 841(a)(1) but acquitted him of using a
firearm in relation to a drug offense, in violation of 18 U.S.C. § 924(c). Despite Watts acquittal on the
firearms count, the District Court found by a preponderance of the evidence that Watts had possessed the
guns in connection with the drug offense. In calculating Watts’ sentence, the court therefore added two
points to his base offense level under the United States Sentencing Commission Guidelines Manual
§2D1.1(b)(1) (Nov. 1995) (USSG). The Court of Appeals vacated the sentence, holding that “a
sentencing judge may not, ‘under any standard of proof,’ rely on facts of which the defendant was
acquitted.” 67 F. 3d, at 797 (quoting United States v. Brady, 928 F. 2d 844, 851, and n. 12 (CA9 1991),
abrogated on other grounds, Nichols v. United States, 511 U.S. 738 (1994)) (emphasis added in Watts).
In Watts, the Court has assimilated a very broad language in the application of the use of
acquitted conduct at sentencing when the verdict is “general” because there is no precedent set when the
verdict is “not general”. The courts remain divided due to this lack of clarity. Here, Johnson was
sentenced to approximately ten additional years (nearly doubling his sentence) for conduct the jury
acquitted him of. It was not difficult for the jury to acquit Johnson of using a firearm because the victim,
Cabell Franklin, testified that Johnson was not the shooter. How is it appropriate to nearly double a
Defendant’s sentence for a crime he was never convicted of?

4

Judges can punish people for crimes they are not convicted of in court known as judicial findings.
It allows judges to sentence Defendants for crimes they are indicted for regardless of whether that charge
is dropped in a plea deal or they are acquitted by the jury. A bill to end this practice has been introduced
in the Senate called Prohibiting Punishment of Acquitted Conduct Act of 2019 (S. 2566). This bill has
bipartisan support and is currently sponsored by, among others, Senators Dick Durbin and Cory Booker.
(http:www.nationalprisonconsultants.com). Congress enacted the Sentencing Reform Act to curtail
inconsistency and unpredictability in sentencing that had been exacerbated by the broad discretion
afforded judges working within statutoiy ranges. This act eventually brought about the federal sentencing
guidelines, which are designed to facilitate uniformity by providing formulaic procedures to calculate a
sentence based on consideration of "relevant conduct" and the jury's verdict.
Here, in Johnson’s case, the jury verdict is dominated by acquitted conduct including Pinkerton
liability acquittals which differs vastly from Watts. Given the court has held that a substantively
unreasonable penalty is illegal, Scalia argued in his dissent:
“It unavoidably follows that any fact necessary to prevent a sentence from being substantively
unreasonable—thereby exposing the defendant to the longer sentence—is an element that must be
either admitted by the defendant or found by the jury. It may not be found by a judge.
The late Scalia further stated that, because the court had yet to explicitly set forth this reasoning,
the circuit courts had taken silence as license to permit unreasonable sentences based on judicial
fact-finding”.

2. Is there a difference in the courts use of discretion at sentencing with regard to whether the
Pinkerton Question is one of “amount attributed” as opposed to guilt or innocence?
Johnson did not commit the crime of shooting the victim and in fact was acquitted of this crime.
Here, counsel states as follows:
Counsel: “I would also like to point out that I have—while I understand the rationale about
acquitted conduct, certainly, one can be acquitted of a substantive offense but still conspire to
commit it. I understand that principle. What I am most troubled by is the Pinkerton Liability.
The only additional element to a Pinkerton liability charge that isn’t in the conspiracy is that the
co-conspirators at least had to commit the offense. In this case, the co-conspirators were sitting on
5

the witness stand and said they committed it. So, that certainly wasn’t a reason for the jury
dismissing the Pinkerton Liability and it shouldn’t be a reason for the Court to dismiss that. So, it
doesn’t make sense to me that a defendant can be convicted of this conspiracy and not end also be
acquitted of Pinkerton Liability under the facts of this case. That’s all the argument I have on that
your Honor. -I’m not going to belabor that point.” See (J.A. pgs. 671-672)
The Court: Well, the thing that 1.. .the thing that troubles is not the word, but the thing that is
hard to get past is that the jury found him not guilty of count I based beyond a reasonable doubt
standard. If he didn’t conspire - if he wasn’t part of the conspiracy for the first Leair Lipscomb
robbery and Cabell Franklin robbeiy, what did he conspire to do? I mean that’s, that’s the -that’s
the thing that I am struggling with on this and I think we have to give some respect to the jury’s
verdict. And I understand that, the conviction of the con spiracy but the acquittal on the
substantive counts a challenge, but so my—that’s why I asked the question, can I consider-is
there any reason that I cannot consider the jury’s verdict when I consider this issue?” See (J.A.
pg. 673 lines 8-22).
These questions among others went unanswered and ignored due to the lack of guidance on
acquitted conduct in its various scenarios. The Court enhanced Johnson by the preponderance of the
evidence standard, disavowing not only the jury’s verdict of acquittal on all substantive offenses, but also
disavowing the shooting victim’s testimony. The pertinent part of the victim’s testimony is as follows:
Counsel: Do you remember telling Detective Tate and Detective Daniels that you actually knew
who it was who shot you? Do you remember that?
Cabell Franklin: I believe I said it was Andrew Coleman, yes, sir.
Counsel: Andrew Coleman? As a matter of fact, you didn’t say you believed it was Andrew
Coleman. Do you remember that?
Cabell Franklin: Yes, sir. See (J.A. pg. 245 lines 1-7 Cabell Franklin Testimony).
Counsel: Thank you sir. Before you spoke with Detective Daniels and Detective Tate and
Detective Daniels, you had studied the photograph on Facebook of Mr. Andrew Coleman; isn’t
that correct?
Cabell Franklin: Yes, sir.
Counsel: And you noticed that photograph had images of Mr. Tate holding two pistols; is that
true?
Cabell Franklin: I remember that, yes sir. See (J.A. pg. 248-49 Cabell Franklin Testimony).

Again, the Court enhanced Johnson by seven points for discharging a firearm inside of the
conspiracy in which he was acquitted under the Pinkerton Liability questions. These questions predicated
on the same conspiracy which asked specifically if Johnson personally discharged a firearm or if he

6

should be held liable for firearm being used, carried, brandished or discharged out of the act of his co­
conspirators. The courts reasoning at sentencing for enhancing him seven points for discharging a firearm
was stated as follows:
The Court: “Beyond that, with regard to the enhancements, the defendant doesn’t have to be the
shooter to get tagged with the enhancements related to the shooting of Cabell Franklin. That’s
not how it works. So, in terms of the guideline calculation, it doesn’t matter if he is the one who
shot him or not, okay? See (J.A. 758 lines 13-18 sentencing transcripts).

The guidance in which the court used in this case was based primarily on the holding of Watts v.
United States. Watts provides no real clarity to acquittals under Pinkerton Liability Questions. Watts only
brings guidance to general verdicts. The outcome in Johnson’s case is an excellent example of “narrow
rulings being broadly applied”. And in his case, it led to his constitutional rights being violated.
Pinkerton Liability questions are often requested, and in some statutes required to determine
specific liability inside of a conspiracy. There have been large amounts of precedent set to guide the courts
on Pinkerton Liability questions predicated on drug conspiracies, financial conspiracies and other
conspiracies where “amount attributable’ questions are asked. In instances where “amount attributable”
questions are answered, the jury’s verdict safeguards sentencing judges from extending liability above the
jury’s findings, thus limiting the court’s discretion at sentencing. “Defendant’s liability was already limited
by Pinkerton”. See United States v. Chittenden, 848 F. 3d 188 (4th Cir. 2017).
In the case at hand the broad discretion advised by Watts directly conflicts with the safeguards at
sentencing empowered by Pinkerton Questions. The Court assumes because the Pinkerton Questions in
Johnson’s case are ones of guilt or no guilt, that the safeguards the juiy answers reflect are not the same as
it would be with a Pinkerton Question of “amount attributable”. Johnson is aware of the difference in
context of the two types of questions. However, the context of the questions does not change the elements
in which the court must prove in order to hold him accountable of Pinkerton questions. Regardless of that
type of conspiracy the Pinkerton predicated in its holding remains relevant.

7

First, the offense defined in the substantive count was committed by a member of the conspiracy.
Second, the substantive crime was committed during the existence of life of and in furtherance of
the goals of the conspiracy.
Third, that at the time this offense was committed, the defendant was consideration was a member
of the conspiracy. (See Pinkerton v. United States, 511 U.S. 738 (1994).
It is implausible for the court to still hold its views on enhancement for the shooting of Cabell Franklin if
it respects Pinkerton as it relates to conspiracies generally.
Although Pimentel-Lopez v. United States is a drug conspiracy instead of a Hobbs Act
Conspiracy the Court makes a constitutional finding that relates to Johnson and his Pinkerton argument.
“The Judge may of course, depart upward from the sentencing range generated by the jury findings. Also,
where the juiy makes no finding as to quantity or finds an unspecified amount, there would be no
inconsistency between the verdict and any quantity that the judge finds during sentencing”.
In Johnson’s case this line of guidance continues into his case. The court would have been
correct in enhancing him seven points for discharging a firearm inside of the conspiracy count had the
jury not specified in the form of a Pinkerton question that he wasn’t liable. When the government opted
to add Pinkerton Questions to the jury instructions “the jury answered the questions it was asked and so
their vote was cast. The government cannot disavow the finding that the jury makes as a result”. See
United States v. Pimental, 107 F. 3d at 1339 n. 2.
In United States v. Watts states that “acquitted conduct can be considered if the verdict is
general”. In Johnson’s case, the scenario of the jury verdict is far from general. Johnson was found
guilty of Conspiracy to Hobbs Act Robbery and then found not guilty of eveiy substantive offense in
which the Government presented at trial including acquittals of aiding and abetting those offenses. Along
with those acquittals, he was also found not guilty of felon in possession of a firearm and the Pinkerton
Liability Question asking the jury specifically on both robberies that the government presented if he
8

should be held liable for the use of those firearms in any way. The jury rejected the government’s
evidence. (See J.A. 467-475 Jury Verdict).
Johnson’s case firmly strengthens Justice Stevens dissent in Watts. “It is difficult to square this
explicit statutory comment to impose incremental punishment of “multiple offenses” of which a
defendant “is convicted” with the conclusion that Congress intended incremental punishment for each
offense of which a defendant has been acquitted” (See Watts 519 U.S. 169). While acquitted conduct
may be considered at some point during sentencing, in the case at hand, allowing the courts to consider all
acquitted conduct as general (as it overlooked the difference of an acquittal on a Pinkerton Question
making it general) and the calculated acquitted conduct in the advisory guidelines eviscerated the value of
the jury’s verdict.
3. Did the court violate the petitioner’s Sixth amendment right to jury trial when it allowed the
probation office to use discretion in calculating acquitted conduct into Advisory Sentencing Guidelines?
Acquitted conduct sentencing robs individuals of their Sixth Amendment rights to trial by jury by
divesting citizens of their historical and constitutional role in the administration of criminal justice. At
sentencing Johnson was severely prejudiced by allowing the courts to “consider” acquitted conduct based
on advisory guidelines that already considered acquitted conduct - this violated Johnson’s sixth
amendment rights.
Johnson contends that the remedy to acquitted conduct sentencing issues would be to calculate
advisory guidelines in reverence with the jury’s trial. At sentencing the court uses a guideline that reflects
the jury’s verdict and then “considers” acquitted conduct applying a variance if necessary, which would
hold the courts accountable for drastic increases and reasonings.
“Although the district court has discretion to depart from the guidelines, the court “must consult
those guidelines and take them into account at sentencing.” See (United States v. Booker 220. 264, 125
S. Ct. 738 160 L. Ed. 2d 621 (2005).
9

Johnson’s remedy would be the conduit that ties Watts, Pinkerton and Booker together in
constitutionally sound logic. Johnson doesn’t argue that the courts should not have broad discretion at
sentencing. However, to allow district courts to use the preponderance of the evidence standard after a
jury has heard the evidence at trial and found it lacking and thus acquitted him of specific acts would
violate the accused right to trial by jury.
Conclusion
In conclusion the courts should grant writ of certiorari in order to clarify and protect the Sixth
Amendment and to guarantee that every fact necessary to convict and hold a defendant accountable must
be found by a jury. In this case the court transcripts of the trial and jury’s verdict, conclusively prove that
the shooting victim in the Cabell Franklin robbery knew the shooter to be someone other than Jamaa
Johnson, which led the jury to specifically find him not guilty of the robbery and the shooting. The jury
also found him not liable for the use of firearms in this specific robbery out of the acts of his co­
conspirators. These are facts that are completely inconsistent in contrast to the Probationer’s calculation
of the guidelines and the Court’s view of the case at sentencing.
After the testimony of the shooting victim and the jury’s verdict, that should have been the end of
the allegations concerning Johnson’s liability inside of the conspiracy with regards to the Cabell Franklin
robbery. However, the Court believing it could exercise its broad discretion based on prior narrow
rulings, disregarded the distinction between special verdicts and general verdicts when considering the
Pinkerton questions as general which severely punished Jamaa Johnson for the shooting conduct of
Cabell Franklin.
We pray that this Honorable Court correct this constitutional violation by clarifying the
differences in special verdict acquittals and general verdict acquittals and in doing so begin the process of
ruling the discretionary power given to probationers and to Courts by proper use of advisory sentencing
guidelines.

10

Alternatively, we pray this Honorable Court will remand this case back to the lower court with an
Order to revisit the calculation of the sentence with a goal of protecting Defendant’s Sixth Amendment
right to trial by jury.
Respectfully Submitted,

Jamaa I. Johnson, pro se
Federal Correctional Institution Petersburg Law
P.O. Box 1000
Petersburg, Virginia 23804

11

